                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A14020011                                                                   Page 1 of 1


         NSF OIG received an allegation that the research proposed in an NSF proposal 1 was
         substantially similar to work previously done in an NSF-funded project. Upon investigation, we
         learned that the co-PI submitting the proposal was a former post-doc in the research group that
         carried out the NSF-funded project. Although the proposed work could be viewed as a logical
         extension of the work done by the research group, the proposal covers a distinct subject matter
         and does not propose performance based on computational products developed by the group. On
         the other hand, certain circumstances suggest that the proposed work may in fact be designed to
         rely on the research group's work, but the circumstances are not conclusive at this point.
         Because the likelihood that the proposed work will rely on the research group's computational
         work is currently speculative, we concluded that the allegation did not contain any actionable
         research misconduct as defined by NSF regulation2 .

         Accordingly, this case is closed with no further action taken.




NSF OIG Form 4 (11102)
